IN THE
SUPREME COURT OF THE UNITED STATES

HECTOR VALDEZ, a/k/a Arnaldo Lopez, a/k/a Jose
Ocasio, a/k/a Jose Altagracia, a/k/a Jorge Figueroa,
a/k/a Hector Nunez, a/k/a Jesus Perez, a/k/a Ramon
a/k/a Boli,
V.

UNITED STATES OF AMERICA
RESPONDENT
MOTION TO PROCEED IN FORMA PAUPERIS
Now comes the petitioner in the above entitled matter and moves for leave to proceed in
forma pauperis. In support of said motion, petitioner states, pursuant to Rule 39 of the Supreme
Court Rules, that counsel was appointed for the petitioner in the United States Court of Appeals
under the Criminal Justice Act of 1964, 18 U.S.C. ยง 3006A.

Hector Valdez
By his Attorney,

/s/ Robert B. Mann
Robert B. Mann
Robert B. Mann Law Office One
Turks Head Place,Suite 610
Providence, R.I. 02903
(401) 351-5770
rmann@rbmann.com

